               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 13-01498-318



             Healthcare Inspection 


   An Unexpected Death in a Mental 

      Health Treatment Program 

  VA New Jersey Health Care System 

         Lyons, New Jersey 





September 17, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations: 

                  Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

                    Web site: www.va.gov/oig

                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection in response to a request by the Office of Inspector General, Office of
Investigations to review the care of a patient receiving post-traumatic stress disorder
(PTSD) treatment at the Mental Health Residential Rehabilitation Treatment Program
(MH RRTP) at the VA New Jersey Health Care System (facility), Lyons, NJ.

The patient, who was middle-aged, had a prior history of poorly controlled blood
pressure and coronary artery disease with a myocardial infarction (heart attack) in his
late thirties. On Day 70 of participation in the residential PTSD program, a nurse found
the patient pulseless and unresponsive in his room. Cardiopulmonary resuscitation
efforts were unsuccessful.

The Office of the State of New Jersey Medical Examiner autopsy report listed “Acute
intoxication due to the combined effects of cyclobenzaprine, tramadol, gabapentin,
sertraline, hydroxyzine, and amlodipine” as the cause of death. Final diagnoses also
included hypertensive and atherosclerotic cardiovascular disease affecting the coronary
arteries, aorta, and kidney vasculature, and evidence of a remote history of having had
surgery for fasciitis due to a gunshot wound. The manner of death (suicide, homicide,
accidental) was listed as undetermined. No recent thrombus was found on examination
of the cardiovascular system during autopsy.

The VHA MH RRTP Handbook specifies that veterans in MH RRTP programs are able
to learn and practice safe management of their medication regimens in order to achieve
independent medication administration. Each or MH RRTP Program Manager must
develop a local policy for Safe Medication Management (SMM) within the unit. A
patient’s ability to safely manage medications must be assessed by a clinician upon
admission into an MH RRTP.

The level of independence for each veteran must be assessed as either:

   	 Dependent-veteran requires additional education and varying levels of
      medication supervision which includes direct involvement for observing and
      administering each medication

   	 Semi-independent-veteran is able to assume partial responsibility for storage,
      security, and safe administration of medications. For these patients professional
      staff may assume an indirect role in the veteran’s medication management by
      documenting the results of periodic reviews of veteran’s safe medication
      practices, a visual count of Veteran’s medications, or clinical observations of their
      responses to medications or

   	 Independent-veteran is able to assume complete responsibility for the storage,
      security, and safe administration of medications. These patients understand the
      purpose of each medication with a general understanding of their common side
      effects, and can consistently demonstrate independent medication management.

VA Office of Inspector General                                                                   i
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ

Patients’ abilities to manage their own medication may change throughout participation
in the MH RRTP. SMM is to be incorporated into the individual treatment plan for MH
RRTP patients and is to be reviewed as part of treatment planning updates. VHA’s MH
RRTP Handbook also specifies that clinical monitoring of a patient’s response to
medication must be evaluated and recorded in the patient’s medical record at least on a
monthly basis. This monitoring should include: (1) identification of target symptoms
(2) evaluation of the efficacy of medication on the target symptoms including any
adverse events, and patient perception of efficacy and side effects (3) review of relevant
laboratory results and (4) an evaluation of educational needs and barriers.

During the inspection, we found that program staff did not comply with Veterans Health
Administration and facility requirements for an effective, safe medication management
program or document the resident’s care sufficiently or timely.

We also found that leadership did not provide sufficient professional support for a MH
RRTP advanced practice registered nurse.

We recommended that the Health Care System Director ensure that the facility:

   	 Complies with MH RRTP safe medication management requirements.

   	 Completes MH RRTP electronic health record                       documentation     that   is
      individualized, timely, and includes required elements.

   	 Provides appropriate follow-up to requests for professional support by MH RRTP
      mid-level providers.

Comments
The Veterans Integrated Service Network and System Directors concurred with the
findings and recommendations and provided acceptable action plans. (See Appendixes
A and B, pages 15-18 for the Directors’ comments.) We will follow up on the planned
actions until they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for 

                                                             Healthcare Inspections





VA Office of Inspector General                                                                   ii
                                  An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ



                                               Purpose 

The Department of Veterans Affairs (VA) Office of Inspector General (OIG) Office of
Healthcare Inspections (OHI) conducted an inspection at the request of OIG
investigators following the unexpected death of a resident in the VA New Jersey Health
Care System (VA NJ HCS) Post Traumatic Stress Disorder (PTSD) Mental Health (MH)
Residential Rehabilitation Treatment Program (RRTP). We reviewed the care of this
patient and compliance with safe medication management protocol by staff.

                                           Background 

VA NJ HCS consists of two campuses, one in Lyons, and the other in East Orange, NJ.
A 381-bed tertiary care center, VA NJ HCS provides comprehensive health care
through inpatient and outpatient services in medicine, surgery, MH, substance abuse,
and homeless services. The Lyons Campus (facility) includes a 300-bed community
living center, an 85-bed domiciliary, a 25-bed PTSD RRTP, and a 10-bed Women’s
Trauma unit. VA NJ HCS has 10 community based outpatient clinics located
throughout New Jersey and is part of Veterans Integrated Service Network (VISN) 3.

MH RRTP

The facility’s 25-bed unit is one of 40 Veterans Health Administration (VHA) PTSD-
specific MH RRTPs.1 In 1995, VHA established the MH RRTP bed level of care for
patients with mental illnesses and/or addictive disorders who do not warrant acute
psychiatric inpatient admission but require additional structure and support to address
multiple and severe psychosocial deficits. In addition to individual psychotherapy, the
facility’s program includes psychiatric (medication) treatment, psycho-educational2 and
process3 treatment groups. The two tracks of PTSD treatment offered at the facility
were PTSD and substance abuse (45-days) and general PTSD (50-days).

VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program
(MH RRTP) (Handbook), published December 22, 2010, established procedures and
reporting requirements for this level of care.

Safe Medication Management

VHA requires MH RRTPs to emphasize rehabilitative approaches that promote
education and practice of self-care skills, including residents’ self-management of their

1
  Northeast Program Evaluation Center, Mental Health Residential Rehabilitation and Treatment (MH RRTP) 

FY 2011 Power Point, NEPEC VHA Website, accessed April 29, 2013. 

2
  Psychoeducational groups are structured therapeutic sessions to include the presentation of didactic material to

enhance psychological functioning and coping.

3
  Process groups are unstructured therapeutic sessions that allow group members to address any psychological issue

of concern to them at the time of group. Process groups may focus on specific topics, such as trauma coping, 

substance abuse, or relationship issues.





VA Office of Inspector General                                                                                 1
                                  An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


medication regime. VHA also requires the MH RRTP manager to develop and
implement a local policy for safe medication management (SMM) that addresses
medication administration, assessment, education, monitoring, and secure storage, and
that a pharmacist serves on the MH RRTP team.4 Beginning on the day of admission,
SMM is required to be an active ongoing interactive assessment and education process
between MH RRTP staff and the program participant.

Assessment and Education
Upon admission to a MH RRTP, a provider, such as a physician, advanced practice
registered nurse (APN), physician’s assistant, or registered nurse (RN) must conduct
medication reconciliation (MR)5 and assess the resident’s current level of knowledge,
understanding, and management of their medication regime.6 Staff who complete the
assessment must document this information in the electronic health record (EHR).
Using this assessment, a provider must enter an EHR order designating a patient’s
specific SMM level.
Based on the assessment, residents are classified as Level I (dependent), II (semi-
independent), or III (independent). Following assessment, a provider is to educate the
resident about each prescribed medication and document the resident’s learning needs,
education, and understanding. VHA outlines that residents on more than three
medications per day might benefit from the use of an assistive device, such as a pillbox,
reminder alarm, signage, and/or pictorial chart of medications.7 Responsibilities for
administration, management, and medication education are defined by the assigned
level, as shown in Table 1.8

    Level I - Dependent             Level II – Semi-Independent                 Level III – Independent
    Staff stores, dispenses,         Staff stores, dispenses, and              Staff stores and dispenses
     and supervises every            supervises some medication                  controlled substances
       medication dose.                         doses.                                    only.9
                                   Resident self-administers some               Resident self-administers
    Resident does not self-
                                   medications and stores 1-30 day             medications and stores 1-30
       administer any
                                    medication supply in a locked              day medication supply in a
         medication.
                                              location.                             locked location.
       Staff reinforces                 Staff provides medication                Staff provides medication
     medication education                 education initially and                  education initially and
       with each dose.                         periodically.                            periodically.
Table 1. Overview of VHA MHRRTP SMM Levels

4
  VHA Handbook 1162.02, Mental Health Residential Rehabilitation Treatment Program (MH RRTP), December 

22, 2010.

5
  Medication reconciliation is a process of validating all prescribed, over-the-counter, and other medications and

supplements reportedly taken by a patient.

6
  VHA Directive 2011-012, Medication Reconciliation, March 9, 2011. 

7
  VHA Handbook 1162.02. 

8
  ibid. 

9
  Medication independent patients in Compensated Work Therapy Transitional Residence (CWT-TR) programs may 

be dispensed up to a 7-day quantity or less of a controlled substance. 





VA Office of Inspector General                                                                                  2
                                   An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


Monitoring
SMM is to be incorporated into an MHRRTP patient’s individual treatment plan (ITP) and
must be reviewed as part of ITP updates. VHA requires ITPs include any history of
medication-related high-risk behaviors, such as suicide attempts with overdoses or
treatment resistance, and high-risk-alert medications, and reflect the most current SMM
level.10
Assessment of the patient’s medication knowledge is a process by which a veteran’s
ability to accurately and safely manage the medication regimen is determined.
Reassessment must take place as deemed appropriate by the medical provider, but at
least monthly, and all findings documented in the patient’s medical record. VHA’s MH
RRTP Handbook specifies that clinical monitoring should include: (1) identification of
target symptoms (2) evaluation of the efficacy of medication on the target symptoms
including any adverse events, and patient perception of efficacy and side effects (3)
review of relevant laboratory results and (4) evaluation of educational needs and
barriers.
In addition, staff must monitor and review a resident’s response to the first dosage(s) of a
new medication and upon a resident’s return from an authorized absence (pass), staff
must inventory residents’ medication, document medication use, and return excess pass
medication to the pharmacy.
Storage and Security
VHA requires that for residents with independent or semi-independent SMM status, the
resident’s medications be kept in a locked location accessible only to the resident and
qualified staff and that the resident must agree, in writing, to comply with all MH RRTP
medication security requirements. The written agreement must include a statement that
the resident is responsible for the security of medication(s) in a designated locked area
with security code or key. Inspections of all residents' rooms must occur daily to detect
unsecured medications. In addition, the facility policy must include a process to address
any difficulty the resident might exhibit in securing medication.

APN Scope of Practice

APNs are RNs who have obtained a postgraduate nursing degree, typically a master’s
degree. National policy outlines scope of practice (now called the core elements of
practice)11 and the privileges appropriate for APNs. In 2012, the majority of states
required physician involvement in APNs’ practices of diagnosis, treatment, and
medication prescription.12 New Jersey is one of nine states that require physician
involvement to prescribe medications but not to diagnose or treat residents. VHA
recognizes APNs as independent practitioners although requires a collaborating

10
   High-risk-alert medications are drugs that bear a heightened risk of causing significant harm when they are used 

in error. Source http://www.ismp.org/tools/highalertmedications.pdf, accessed April 16, 2013. 

11
   Office of Nursing Services, APRN Facts and Background as of February 2012, accessed February 14, 2013. 

12
   Health Affairs, Health Policy Brief, Robert Wood Johnson Foundation, October 25, 2012, source Health Policy

Brief, accessed April 11, 2013. 





VA Office of Inspector General                                                                                    3
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


physician for the prescription of controlled substances.13,14 In addition, the APN’s
clinical service chief is responsible for the healthcare provided by that APN. VISNs and
facilities may have local policies to address the scope of practice, including expectations
regarding physician collaboration.

                            Scope and Methodology 

We consulted with OIG investigators and reviewed the subject patients EHR, relevant
facility and national policies, and relevant reports including autopsy, Mathematica
Follow-Up Quality Review, a root cause analysis on the subject case, patient incident,
patient advocacy, safety, and quality. During our February 11 – 13, 2013, site visit we
interviewed facility managers and staff. We reviewed APN scope of practice and
physician collaborator agreements, and resident monitoring documentation, including
SMM resident agreements, daily sign in/sign out logs, and daily inspection records

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                     Case Summary 

The patient was a middle-aged male who began care at the facility in 2004. His medical
history included poorly controlled blood pressure and coronary artery disease with a
myocardial infarction (heart attack) in his late thirties. He had a history of alcohol-
related admissions in 2008, 2009, and 2010, and he engaged intermittently in outpatient
substance use treatment. In the time frame leading up to admission to the MH RRTP
the patient was participating in a substance abuse treatment program (SATP) at the
facility prior to admission and attending groups that focus on treatment of concomitant
substance use and PTSD issues.

In the early spring of 2012, the patient showed up unscheduled at the office of an SATP
psychologist and expressed his belief that he needed more intensive PTSD treatment.
He was subsequently referred and 1 week later screened and accepted into the PTSD
MH RRTP. Prior to admission, he had been residing with his ex-wife.

His outpatient medication regimen consisted of seven standing (daily) medications
including amlodipine for high blood pressure; omeprazole, a medication used to treat
gastroesophageal reflux; naproxen, a non-steroidal, non-opiate, anti-inflammatory
medication used to treat pain; Zoloft, an anti-depressant medication; prazosin, an anti-
hypertensive medication that has shown efficacy in some patients treated for
problematic nightmares associated with PTSD; hydroxyzine, an anti-histamine

13
   Office of Nursing Services, APRN Facts and Background as of February 2012, source

http://vaww.va.gov/nursing/aprnPractice.asp#visn, accessed February 14, 2013. 

14
   VHA Nursing Handbook 1180.03-Draft, VHAnursingHandbookDRAFT_PENDINGSep2012, accessed April 11, 

2013. 





VA Office of Inspector General                                                                    4
                                        An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


medication used by some patients for anxiety related symptoms; and trazadone, an
older anti-depressant medication that is also frequently used by clinicians to treat
insomnia.

Within the first week of admission, a history and physical were performed, a
psychosocial history was completed, and he was assessed for suicidality. During his
treatment in the MH RRTP, he participated in individual sessions and group activities
focused on PTSD and substance use recovery.

Throughout the resident’s treatment course, he had problems with elevated blood
pressure, pain, and sleep disturbance, including nightmares. In response to ongoing
medical issues, the APN submitted several medical specialty consultation requests.

During the course of treatment, providers made multiple changes in the subject
resident’s medication regimen. For example, the APN added gabapentin on Day 5 and,
per the resident’s request, doubled the dosage on Day 9. Gabapentin is an anti-
convulsant medication that is also FDA approved to treat pain that can follow healing of
shingles. Some clinicians use gabapentin off-label to manage other pain conditions.
On Day 17, the APN discontinued trazodone; but did not document the reason for this
change.

A week later (Day 24), the psychiatrist increased the patient’s prazosin dosage to
address nightmares and, per the resident’s request, increased sertraline dosage. On
Day 30, the cardiologist recommended starting hydrochlorothiazide (a diuretic
medication used to treat high blood pressure), re-checking the patient’s blood lipid level
in 2 weeks,15 and adding medication if lipid levels warranted, however, there was no
documented re-check of lipid levels.

On Day 45, a psychiatric resident increased the prazosin dosage but did not document
an explanation for that change. Notes in the EHR show that the patient’s treatment
admission was extended beyond the expected 45-day stay. MH RRTP staff did not
document the clinical justification for this extension nor update the ITP to reflect the
change.

On Day 51, the APN prescribed cyclobenzaprine per the resident’s complaint of pain
and request for that specific medication. Cyclobenzaprine is indicated as an adjunct to
rest and physical therapy for relief of muscle spasm associated with acute, painful
musculoskeletal conditions. Three days later, Physical Medicine and Rehabilitation
Services evaluated the resident’s pain and prescribed time-limited steroid treatment and
physical therapy. We did not find that a referral to physical therapy had been submitted.
On Day 59, the APN evaluated the resident for pain and increased the gabapentin
dosage, added baclofen (a medication used to treat muscle spasms caused by certain




15
     Lipid levels refer to blood fats that circulate in the blood, and they can be measured by a laboratory analysis.




VA Office of Inspector General                                                                                          5
                                   An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


conditions) and ibuprofen.16 The APN did not document a pain level. Five days later,
the APN discontinued the ibuprofen. On Day 65, the APN prescribed tramadol to treat
the resident’s pain from a back injury that occurred during a recreational sports activity.

During his time in the program, the resident went on six weekend-authorized passes.
Although granted a weekend pass from Days 68–70, the resident did not leave the unit.
On Day 68, he attended two scheduled group treatment sessions and evening nursing
staff observed the resident was “...vissible [sic] on the unit; he is pleasant and in
compliant [sic] with the unit and medication regime. Mood and affecct [sic] euthymic.
No complaints voiced and no distress noticed.” On Days 69 and 70, the resident signed
the “Daily Sign-In/Out Log” in the morning listing his destination as “Front.” Staff
informed OHI inspectors that the resident was known to suntan outside. Also on both
days, nursing staff obtained the resident’s blood pressure17 (145/79 and 136/70,
respectively) and, after conducting mid-day room inspections, noted that they did not
find any unsecured medications in the resident’s room.

On the day of his death, the resident received several unanswered phone calls from his
ex-wife, with whom he had reportedly been arguing in the days preceding his death.
The resident had also posted a handwritten sign on his room door that read,
“1510 Taking Nap Am Sleeping Pls do not Disturb Thank you.” There is no other
documentation of the resident’s status or discussion of his decision to remain at the
facility for the weekend.

In the late afternoon on Day 70, the patient interacted with a nurse however; 2 hours
later, the nurse found him unresponsive and with no pulse on the floor of his room. A
plant appeared to have been knocked over. Cardiopulmonary resuscitation efforts were
unsuccessful. On the day of his death, the patient’s standing medication regimen
consisted of amlodipine, hydrochlorothiazide and lisinopril for high blood pressure;
sertraline, prazosin, hydroxyzine for psychiatric symptoms; omeprazole for gastric
reflux; and baclofen, cyclobenzaprine, gabapentin, and tramadol for pain. Investigators
did not find the patient’s medication bottles present at the scene or stored in his locker
and when interviewed staff were unable to account for the whereabouts of the
medications.

The Office of the State of New Jersey Medical Examiner performed an autopsy, and the
report’s final diagnoses included:

        I.       Acute intoxication due to the combined effects of cyclobenzaprine,
                 tramadol, gabapentin, sertraline, hydroxyzine, and amlodipine.
        II.      Hypertensive and atherosclerotic cardiovascular disease

16
   Ibuprofen is a non-steroidal anti-inflammatory drug (NSAID) used for pain relief, fever reduction, and against
swelling. NSAIDs may increase the risk of heart attack or stroke and are contraindicated for patients with a history
of heart disease, WebMD Ibuprofen, accessed May 6, 2013.
17
   Blood pressure is considered normal when the top number (systolic) is less than 120 and the bottom number
(diastolic) is less than 80, National Heart, Lung, and Blood Institute, accessed June 4, 2013.




VA Office of Inspector General                                                                                    6
                                      An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


            III. 	   Status post-surgery performed for treatment of fasciitis due to gunshot
                     wound, remote.
The medical examiner listed the “manner of death” (suicide, homicide, or accidental) as
undetermined.

                                        Inspection Results 

Medication Regimen

At the time of death the patient was on three medications for his blood pressure, one for
depression, one for nightmares, one for reflux, and four for pain and spasm. The
dosages were within normal range. Following the resident’s death, his medication vials
were not observable in his room nor were they found locked in the medication storage
area. Serial investigations were unable to determine the whereabouts of the medication
vials. The New Jersey Medical Examiner reportedly indicated mildly elevated levels of
sertraline, tramadol, and flexeril but of questionable clinical significance. These levels
were not suggestive of intentional overdose. Tramadol and flexeril can interact to lower
seizure threshold however; the resident did not have a seizure history nor did the
autopsy indicate seizure as cause of death. The patient’s blood pressure had been
monitored the day before and the day of his death and he was not found to be
hypotensive.

Compliance with MH RRTP Program Policies and Procedures

There were problems with the MHRRTP program’s compliance with program policies
and procedures. The facility initiated a comprehensive root cause analysis under their
quality management program and an administrative investigation board to address
issues related to this case. We found specific concerns related to SMM practices, EHR
documentation, and APN-physician collaboration.

A. SMM
                                                         18
In 2010, VHA contracted with Mathematica Corporation to conduct on-site quality
reviews at RRTPs. The purpose of these reviews was to determine if facilities were
meeting the transformation plan goals and VHA requirements for access, quality of
care; safety, security, privacy; and program operations.

VHA’s Mathematica Follow-Up Quality Review Report, dated July 26, 2011, identified
deficiencies in the facility’s SMM program. These deficiencies included insufficient
policy, absence of initial SMM level assessments, and absence of providers’ orders for
residents’ SMM level. In addition, the report notes:

            The program must conduct and document an initial assessment of
            veterans’ medication management level rather than automatically
18
     Mathematica Policy Research Inc. is a non-governmental research organization.




VA Office of Inspector General                                                                       7
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


       determine that all veterans admitted to the program are dependent for
       medication administration.

Although the local policy included VHA’s SMM requirements and guidelines, in practice,
the program did not fully implement these procedures, including some areas identified
as non-compliant in the Follow-Up Quality Review Report.

   1. Assessment and Education

We found discrepancies between documentation of provider orders and the staff-
assigned SMM levels. For example, on the day of the subject resident’s MH RRTP
admission (Day 1), the APN entered medication orders that included the notation of
“level 1 privileges” for some of the medications, but made no privilege-level notation on
others. Although facility practice was to treat all newly admitted patients as level I, VHA
requires assessment upon admission to promote individualized SMM levels. The APN
initiated a progress note documenting medication education and “reinforce[ment of] self-
medication agreement” on Day 4, but did not sign the note until Day 22. Without
signature, other staff could not view the note and the resident’s SMM level remained
unclear. It was not until Day 23 that a staff RN completed the required initial SMM
assessment with a designation of level III. Staff said that he was being treated as a
level 2 throughout his admission.

On Day 32, the APN medication orders again listed the resident at level I for some
medications but entered no level for other medications. Later that day, an RN
completed a SMM evaluation and designated the resident at level III; however, there
were no corroborating orders for level III. On Days 43 and 58, the APN noted that the
resident should continue on level II; with an addendum on Day 58 that stated
“LEVLE [sic] 3 ALL DAILY.”

VHA policy requires education upon medication changes. Facility staff did not
consistently document in the EHR that the resident was educated when a medication
was added, changed, or altered. Additionally, we did not find evidence that a pillbox or
other assistive device was offered or in place for the patient’s use with his multiple
medications or that the MH RRTP pharmacist reviewed medications with the resident,
as required by VHA policy.

   2. Monitoring

Although staff monitored the patient’s blood pressure, they did not document his
response to addition of new medications as required, including the first dose. Nurses
completed SMM evaluation templates with indication that the resident had no barriers to
medication compliance and learning, and that he understood the frequency, route,
dosage, and common adverse events of all his medications. However, the staff did not
document individualized information regarding the resident’s educational needs and
perceptions about medication effectiveness and side effects. There were multiple days
when the resident fell asleep during group sessions and, on one occasion, a
rehabilitation technician noted that the resident attributed his sleepiness to the “new



VA Office of Inspector General                                                                  8
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


medication.” Documentation indicated that the patient gained 18 pounds by Day 51.
There was no documentation of follow-up by staff to evaluate these issues.

Although staff obtained urine drug screen specimens upon the resident’s return from
weekend passes, they did not complete medication inventories, document medication
use while on pass, or return excess medications to the pharmacy, as required by VHA
policy.

   3. Storage and Security

We found that the facility did not obtain the subject resident’s written agreement of
compliance with all MH RRTP medication security requirements as required by VHA
and facility policy. We evaluated 48 resident admissions during a 3-month period,
during which the patient’s admission occurred. We found only three signed written
compliance and none of the three forms were completed with all necessary information,
such as SMM level.

Facility records indicate that inspections of all residents' rooms did occur daily to detect
unsecured medications, including an inspection on the day of the resident’s death.

B. EHR Documentation

We found that MH RRTP staff did not document thoroughly or timely in the subject
resident’s EHR. For example, ITPs, ITP updates, and SMM evaluations were lacking
required information and not compliant with timeframes required. Although initiated on
Day 3, staff did not complete the initial ITP in the EHR until Day 33 and did not include
SMM level as required. On Day 36, the APN entered an addendum to the ITP listing
the resident’s medications and level I designation. Approximately 4 weeks later, staff
documented an ITP update without any SMM information.

Staff also did not consistently document the resident’s pain levels, medication changes
and additions, SMM level orders, and the therapeutic reason for his extended program
stay. Although the SMM evaluation indicates that nursing staff “verbally endorsed” the
level designation to the provider, there was no documentation to indicate that the APN
received this information.

C. APN Physician Collaboration

In the course of our inspection, we found that leadership did not provide sufficient
professional support for a MH RRTP advanced practice registered nurse.

We found that all seven APNs in mental health services had collaborative agreements
with at least one or more physicians, and that they had completed the required
15 annual APN-collaborating physician EHR quality documentation reviews in the
2-year period prior to this inspection. The PTSD RRTP APN had a formal collaborative
agreement with the RRTP psychiatrist. Because of the medical complexity of the MH
RRTP resident population, the APN requested in 2010 through Lyons MH leadership,



VA Office of Inspector General                                                                  9
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


that a formal collaboration agreement be arranged with a primary care physician. This
arrangement had not been established at the time of this inspection.

                                        Conclusions 

The Office of the State of New Jersey Medical Examiner autopsy report’s final
diagnoses included acute intoxication due to the combined effects of cyclobenzaprine,
tramadol, gabapentin, sertraline, hydroxyzine, and amlodipine.

We found that staff did not consistently assess or assign SMM levels for each
medication prescribed for the subject resident. Staff also did not document timely or all
required elements, including the resident’s perceptions about pain, medication
effectiveness, and side effects. Further, clinical managers had not arranged requested
MH APN primary care physician collaboration to further support comprehensive
management of medical conditions and medications.

                                  Recommendations 

1. We recommended that that the Health Care System Director ensures that the Mental
Health Residential Rehabilitation Treatment Program complies with local and VHA
Mental Health Residential Rehabilitation Treatment Program Safe Medication
Management policy requirements.

2. We recommended that the Health Care System Director ensure that Mental Health
Residential Rehabilitation Treatment Program documentation is individualized, timely,
and includes required elements.

3. We recommended that the Health Care System Director ensure that Mental Health
leadership provides appropriate professional support for Mental Health Residential
Rehabilitation Treatment Program mid-level providers.




VA Office of Inspector General                                                                 10
                   An Unexpected Death in a Mental Health Treatment Program, VA NJ HCS, Lyons, NJ
                                                                                     Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


   Date:	      August 6, 2013

   From:	      Director, VA New York/New Jersey Veterans Healthcare
               Network (10N3)

   Subject: Healthcare Inspection – An Unexpected Death in a Mental
            Health Treatment Program, VA New Jersey Health Care
            System, Lyons, NJ

      To:      Director, Baltimore Office of Healthcare Inspections (54BA)

               Acting Director, Management Review Service (VHA 10AR MRS
               OIG CAP CBOC)

               I have reviewed the above report by the Office of the Inspector
               General and concur with its finding. I further concur with the VA
               NJHCS Director’s clarifying comments. Please contact Pam Wright,
               VISN3 QMO, at 718-741-4143, if you require any further
               information.




               Michael A. Sabo, FACHE




VA Office of Inspector General                                                                11
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ
                                                                                      Appendix B
                         System Director Comments


               Department of
               Veterans Affairs	                                   Memorandum


   Date:       August 5, 2013

   From:       Director, VA New Jersey Health Care System (561/00)

   Subject: Healthcare Inspection – An Unexpected Death in a Mental
            Health Treatment Program, VA New Jersey Health Care
            System, Lyons, NJ

      To:	     Director, VA New York/New Jersey Veterans Healthcare Network
               (10N3)

       I have reviewed the above report by the Office of Inspector General
       Healthcare Inspections (OIG) and concur with its findings.             Any
       unexpected death that occurs in one of our programs is of great concern
       and requires that we search for answers in order to identify issues in care
       that need to be improved. This death on the PTSD Unit at Lyons
       underwent several reviews including a Root Cause Analysis, a review by a
       clinical pharmacist and a review by a physician toxicologist. While system
       issues in the Safe Medication Management Program and with the
       collaborative process for Advanced Practice Nurses emerged from these
       reviews, a link between those deficiencies and this death was never
       established. As noted in the above report, the blood levels of the
       Veteran’s medications that were found on autopsy are of questionable
       clinical relevance. None of the reviews drew the conclusion that the
       medication levels explained this Veteran’s death. This report by the OIG
       reinforces our local findings and provides us an organized summary of
       issues that we will continue to address, as outlined in our actions in
       response to the OIG recommendations.




       KENNETH H. MIZRACH




VA Office of Inspector General                                                                 12
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that that the Health Care System Director
ensures that the Mental Health Residential Rehabilitation Treatment Program complies
with local and VHA Mental Health Residential Rehabilitation Treatment Program Safe
Medication Management policy requirements.

Concur

Target date for completion: March 2014

Facility response: Meeting the full intent of the Safe Medication Management Process
that is outlined in the VHA Mental Health RRTP policy requires the development of
detailed processes including outlining specific roles and responsibilities. We have
convened an interdisciplinary Task Force to review all aspects of the Safe Medication
Management process inclusive of assessment, education, monitoring medications, safe
medication agreements, storage of medication and documentation. The Task Force will
review roles of the various professional staffs and will revise the existing process and
policy to explicitly outline roles and responsibilities. Initial action that was already taken
includes removal of Tramadol as a medication that can be prescribed as a Level 3
medication (independent medication administration). A checklist will be developed to
track the progress of the Task Force as well as to serve as a quality assurance tool to
insure that all required and key structures and processes are included. These steps
and staff education to the revised processes are targeted to be done by November 1,
2013. Follow up monitoring of key process steps (e.g. assessment, education,
medication monitoring) will occur until there is a minimum of three months of 95%
compliance. Our target for achieving the full three months of compliance is March 2014.

Recommendation 2. We recommended that the Health Care System Director ensure
that Mental Health Residential Rehabilitation Treatment Program documentation is
individualized, timely, and includes required elements.

Concur

Target date for completion: March 2014

Facility response: As one component of the revisions identified in Recommendation 1,
the Task Force will establish standardized documentation via templates or other
mechanisms that insures full and appropriate clinical documentation of the Safe
Medication Management process. In addition, Mental Health leadership will define
standardized documentation requirements that address deficiencies noted in this report
including integration of medication management into the treatment plan, justification for



VA Office of Inspector General                                                                 13
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ


extending length of stay in the program, response of patients who are on pass, etc.
Chart monitoring for these elements will be done in conjunction with the Safe
Medication Management process monitoring starting in December and will continue until
there is three months of 90% compliance.

Recommendation 3. We recommended that the Health Care System Director ensure
that Mental Health leadership provides appropriate professional support for Mental
Health Residential Rehabilitation Treatment Program mid-level providers.

Concur

Target date for completion: October 2013.

Facility response: The facility has reviewed the collaborative agreement in place for the
Advanced Practice Nurse (APN) assigned to PTSD as well as all APNs assigned to
Mental Health whose role crosses over to medical care of the patient. The APN on
PTSD was identified as having only one collaborative agreement in place with a
psychiatrist. A medical physician has been identified to serve as an additional
collaborator and a new collaborative agreement is being drafted. This is due to be
completed by August 15. In addition, a work group has been convened co-chaired by
an APN and a physician to review the overall manner in which APNs and physicians
collaborate and to make suggestions for improvements that will enhance clinical
collaboration. That group’s work is expected to be completed and recommendations
presented by October of this year.




VA Office of Inspector General                                                                 14
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ
                                                                                      Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Terri Julian, Ph.D., Team Leader
                         Nelson Miranda, LCSW
                         Melanie Oppat, MEd., LDN
                         Gerard Poto, Office of Investigations
                         Michael Shepherd, MD
                         Joanne Wasko, LCSW




VA Office of Inspector General                                                                 15
                                 An Unexpected Death in MH Treatment Program, VA NJ HCS, Lyons, NJ
                                                                                      Appendix E



                                    Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA NY/NJ Healthcare Network (10N3)
Director, VA New Jersey Health Care System (561/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Chiesa, Robert Menendez
U.S. House of Representatives: Robert Andrews, Rodney Frelinghuysen, Scott Garrett,
Rush Holt, Leonard Lance, Frank LoBiondo, Frank Pallone Jr., Bill Pascrell Jr., Donald
Payne, Jr., Jon Runyan, Albio Sires, Christopher Smith




This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                 16
